OAiC\jukL.

No.

20-6119

In The
SUPREME COURT OF THE UNITED STATES

In re. Nira Woods, Dr. — Petitioner,
VS.
The Superior Court of California - Respondents)

Petitioner (“Woods”) Motion for Leave to file 3rd Supplemental Brief
under Hon. US Supreme Court RULE 15.8
1. The said Supplemental Brief is based on Order dated 11/30/2020 not
available on 10/15/2020 the time of the Petitioner filing instant case;
2. Proof of service is attached;

lhlc!)o(hfy

date: 12/03/2020
Petitioner Woods

RECEIVED
l

DEC - 8 2020

The instant said Supplemental Brief is based on Order dated
11/30/2020, the below APPENDIX F not available on 10/15/2020 the
time of the Petitioner filing instant case;
The APPENDIX F Order dated 11/30/2020 was issued in response to
Woods’ Ex-Parte App. Dated 11/24/2020

INDEX TO SUPLEMENT APPENDIX F
APPENDIX F - Order dated 11/30/2020:
“NATURE OF PROCEEDINGS: Hearing on Ex Parte Application to
1. Disqualify Burbank Courthouse from taking any Court Proceeding
in Instant Case; 2. Disqualify Hon. Judge Stewart from Presiding on
Instant Case; 3. Reassign/Send Case Back to Torrance Courthouse 4.
Compel/Demand Defendants 1-20 Production of Documents 5. The
Hon. Court's Appoint a Court Reporter for Hearing Days 6. To Clarify
Precisely what Ex Parte app is on Docket hearing on 12/18/2020
The above ex parte application is called for hearing. Plaintiff fails to
appear.
The Court reads and considers the moving papers. The Court does
not find good cause and the ex parte application is denied in its
entirety.
The Ex Parte Application to disqualify Burbank Courthouse and Hon.
Judge Stewart; AND Compel Defendants' Production; filed by Nira
Woods, Dr. on 11/24/2020 is Denied.
Plaintiff is ordered to give notice.”
7

Appendix F is on instant page

2

SUPLEMENT
To

FACTS / STATEMENT OF THE CASE
1. The said Woods’ Ex-Parte was “Electronically FILED by Superior
Court of California, County of Los Angeles on 11/24/2020 10:39 AM
Sherri R. Carter, Executive Officer/Clerk of Court, by H. Hankins,Deputy
Clerk”. The e-filing made by use of: “Journal Technologies Court Portal”;
2. The Burbank Courthouse proceedings, at the Superior Court of
California, are in violation of our federal Constitutional and Due Process
Rights; and knowingly as such are applied by the Hon. Judge Stewart
and Hon. Judge Kralik, in lower case 20TRCV00564, to deprive Woods’
right for justice, and a day in court; as explains below:
(a)

The Superior Court’s unconstitutional and proceedings never

provided to Woods, which found them only on 11/24/2020 on the internet:
“LOS ANGELES SUPERIOR

COURT DEPARTMENT NC-B

JUDGE

COURTROOM

JOHN

J.

KRALIK

INFORMATION

WWW.LACOURT.ORG ”, and quoting:
“COURT CALL: No telephonic appearances are allowed for SelfRepresented Litigants, or for Ex Parte Applications, Final Status
Conferences, Orders to Show Cause re: Sanctions, Trials, and
Motions for Summary Judgment. Counsel opposing an ex parte
application may appear by court call” (underline score added);
Violate Woods’ federal Constitutional and Due process Rights to equal
court proceedings as the Defendants receive for Ex Parte application are
violated/deprived; AND,

3

(b)

And the said unconstitutional Court Proceedings provide for

Hon. Judge Stewart and Hon. Judge Kralik, in violation of Woods’
Constitution and Due process Rights, to Preside and to Rule [APPENDIX
F, page 7] without the Woods’ physical present; also

Hon. Judges

overruling Woods’ doctor’s order(s) to avoid travel long distances
[Electronically FILED by Superior Court of California, County of Los
Angeles on 1012012020 07:12 AM Sherri R. Carter, Executive
Officer/Clerk of Court, by N. Le,Deputy Clerk”]; overruling Woods’
dismay of violating her Constitutional and Due process Rights to justice
and a day in court; AND
(c)

While in violation of our Constitution and Due process, both

above Hon. Judges, deny reassign the case back to Torrance Courthouse,
were Woods can Appear in person; knowingly using the unconstitutional
court proceedings to issue Order APPENDIX F p. 7, to open the door to
dismiss the lower case, by denying compel of discovery, denying the Hon.
Court's Appoint a Court Reporter for Hearing Days [Fee Waiver provide
for that is only by court’s; order and granted for Woods], denying to
Clarify Precisely what Ex Parte app is on Docket hearing onl2/18/2020;
denying disqualify Hon. Judge Stewart and allow two Presiding Judges
on the case, together and or individually , switching positions on and off;
confusing; covering for each other violation of our Constitution under the
pretense of “The Court does not find good cause and the ex parte
application is denied in its entirety.” As though violation of our
Constitution and Due Process and rights for Justice and a day in Court
is not a good enough reason;
4

3. No additional supplements at this time;
4. Therefore, in great respect, Woods is asking and also praying to
have the Hon. US Supreme Court and Hon. Justices granted this Motion;
Date: 12/03/2020

Plaintiff/Petitioner/Appellant Woods

5

CERTIFICATE OF COMPLIANCE
Pursuant to rule 8.204(c) of the California Rules of Court, I hereby
certify that this brief contains_862___words, including footnotes. In
making this certification, I have relied on the word count of the
computer program used to prepare the brief.
Respectfully submitted on 12/03/2020

l)id^
Petitioner Nira Woods, Dr.

Attachment
p.7

APPENDIX F - Order dated 11/30/2020;

6

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
North Central District, Burbank Courthouse, Department B
20TRCV00564
NIRA WOODS, DR. vs DEPARTMENT OF HOUSING AND
COMMUNITY DEVELOPEMENT
Judge: Honorable John J. Kralik
Judicial Assistant: W. Delgado
Courtroom Assistant: P. Booker

November 30, 2020
8:30 AM

CSR: None
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintiffs): No Appearances
For Defendant(s): No Appearances

NATURE OF PROCEEDINGS: Hearing on Ex Parte Application to 1. Disqualify Burbank
Courthouse from taking any Court Proceeding in Instant Case; 2. Disqualify Hon. Judge Stewart
from Presiding on Instant Case; 3. Reassign/Send Case Back to Torrance Courthouse 4.
Compel/Demand Defendants 1-20 Production of Documents 5. The Hon. Court's Appoint a
Court Reporter for Hearing Days 6. To Clarify Precisely what Ex Parte app is on Docket hearing
on 12/18/2020

The above ex parte application is called for hearing. Plaintiff fails to appear.
The Court reads and considers the moving papers. The Court does not find good cause and the ex
parte application is denied in its entirety.
The Ex Parte Application to disqualify Burbank Courthouse and Hon. Judge Stewart; AND
Compel Defendants' Production; filed by Nira Woods, Dr. on 11/24/2020 is Denied.
Plaintiff is ordered to give notice.
Certificate of Mailing is attached.

Minute Order

7

Page 1 of 1

APPENDIX F

SUM-flOOIAI
SHORT TITLE: NIRA WOODS, OR. VS DEPARTMENT OF HOUSING AND
COMMUNITY DEVELOPEMENT

CASE NUMBER:

20TRCV00564

INSTRUCTIONS FOR USE
-> This form may be used as an attachment to any summons if space does not permit the listing of a& parties on the summons.
-»If thto attachment is used, insert the following statement in the plaintiff or defendant box on the summons: "Additional Parties
Attachment form Is attached."
List additional parties (Check only one box. Use a separata paga tor aach type afparty.):
I

(1)
(2)

(3)

(4)

(5)

(6)
(7)

(8)

(9)
(10)

I Plaintiff

IX l Defendant

I

I Cross-Complainant

I

I Cross-Defendant

Department of Housing and Community Development;
Dep. Of Housing & Community Development Legal Affairs Division,
2020 W. El Camino Avenue, Suite 525, Sacramento, CA 95833
Richard Weinert, an individual;
Dep. Of Housing & Community Development Legal Affairs Division,
2020 W. El Camino Avenue, Suite 525, Sacramento, CA 95833
Kim Borden, an individual;
Dep. Of Housing & Community Development Legal Affairs Division,
2020 W. El Camino Avenue, Suite 525, Sacramento, CA 95833
Edwin G. Galindo, an individual;
Dep. Of Housing & Community Development Legal Affairs Division,
3737 Main Street, Suite 400, Riverside, CA 92501
Chandler’s Sand & Gravel, Inc.;
17932T5aimler Street, Irvine, CA 92614;
The Management j# Skyline Mobile Park;
2550 PCH., Torrance, CA 90505
Victor Guzman, an Individual;
Management, Skyline Mobile Park,
2550 PCH, Torrance, CA 90505
Trade Flaker, an Individual;
Management, Skyline Mobile Park,
2550 PCH, Torrance, CA 90505
Manual Guzman, an Individual;
Management, Skyline Mobile Park,
2550 PCH, Torrance, CA 90505
Janice Torres, an Individual;
Management, Skyline Mobile Park,
2550 PCH, Torrance, CA 90505

Pag*

1__ of

2
1«H

Pom MopM fer MmMny Ua«
ADDITIONAL PARTIES ATTACHMENT
JwMf Omni of OtffcmM
Attachment to 8ummons
8u*mdo(a) [Rw.Jwuwy i. anon
FarvournrataettonMid privacy. ntaeacaraea the Clear

Tide Form button after you have printed the form.

SUM-20MA)
SHORT TITLE:

NIRA WOODS, DR. VS DEPARTMENT OF HOUSING AND
COMMUNITY DEVELOPEMENT

GME NUMBER

20TRCV00564

INSTRUCTIONS FOR USE
-» This form may be used as an attachment to any summons if spaca does not permit the listing of all parties on the summons.
-* If this attachment to used, insert the following statement in the plaintiff or defendant box on the summons: "Additional Parties
Attachment form is attached."
Llstsddttlona] parties (Check only ona box. Uae a separate pege for oach type ofparty.)-.
I

(11)
(12)

(13)

(14)

(15)

(16)

(17)

(18)

(19)
(20)
(21)

I Plaintiff

IX I Defendant

I

1 Cross-Complainant

I

1 Cross-Defendant

N & K Commercial Property, Inc.,
3424 Carson Street, Suite 280, Torrance, CA 90503
Ken Miyake, an Individual;
N & K Commercial Property, Inc.,
3424 Carson Street, Suite 280, Torrance, CA 90503
Dowdall Law Offices, A.P.C.,
284 North Glassed Street
Orange, California 92866-1409
TerryR. Dowdall, an individual;
Dowdall Law Offices, A.P.C.,
284 North Glassed Street
Orange, California 92866-1409
Robin G. Eifler, an Individual;
Dowdall Law Offices, A.P.C.,
284 North Glassed Street
Orange, California 92866-1409
Torrance Police Department; & Department Of Mental Health / Mental Health Department;
3300 Civic Center Drive,
Torrance, CA 90503, (310) 328-3456
Jon Megeff- Deputy Chief / Police Department
3300 Civic Center Drive,
Torrance, CA 90503
Tsae Way, an Individual;
Skyline Mobile Park, 2550 Pacific Cost Hwy.,
Spc. 69, Torrance, CA 90505
Renee Baldwin, an Individual;
Skyline Mobile Park, 2550 Pacific Cost Hwy.,
Spc. 70, Torrance, CA 90505
Robin Famighetti, an individual;
Torrance, Courthouse, 825 Maple Avenue, Dep. J, Torrance, CA 90505
Dose 20-50;
Defendants.
Paga 2

or

2
i«ri

Ftom MopM Ibf Mmktay Um
ADDITIONAL PARTIES ATTACHMENT
AxMd Cnnd of CMItanli
Attachment to 8ummons
8UM-200(A)
Jorniay 1.2D07]
imrtaanona ^aa^aa
and a^a
orivaev. qIooma^a
othu
Hha^^^^^^aa
flanr
oForvour
ana ^aar^arm a^aBaa^^aeaaa^a
w^a^^a aaima

Thla Form button after you have printed tha form.

S2&-3

